Highlights
Table of Contents




                    Facilities
                    Repair and
                    Alteration
                    Process
Findings
Recommendations




                    Audit Report
                    Report Number
                    SM-AR-14-009

                    September 22, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                 Background
                                                               The U.S. Postal Service’s Facilities group manages repairs
                                                               and alterations for over 32,000 facilities. Postmasters and
                                                                                                                                 The Postal Service paid 
                                                               officers in charge submit repair and alteration requests to            $52.9 million 
                                                               Facilities for completion. Facilities project managers use a
                                                                                                                                   via credit card for 
Findings




                                                               national contract with EMCOR, Incorporated to complete

                     While controls over repairs and
                                                               repairs and alterations costing $25,000 or less. For repairs       repairs & alterations 
                                                               costing $10,000 or less, personnel have the option of selecting
                        alterations using the national         contractors and paying them with a credit card. In fiscal year          in FY 2013
                                                               (FY) 2013, Facilities completed 49,980 repairs and alterations
                    EMCOR contract were adequate,              costing about $86 million using either EMCOR or a credit card.

                      the Postal Service can improve           Our objective was to assess internal controls over the
Recommendations




                      controls over those paid for by          Postal Service’s facilities repairs and alterations paid for
                                                               using the EMCOR contract or by credit card. We statistically             Swipe the card
                                         credit card.          selected 207 of the 49,980 transactions for review. Of our
                                                                                                                                      to see the policy
                                                               sample, 113 were paid by credit card and 94 were completed
                                                               using the national contract. We estimated 26,706 of the                    concerns.
                                                               49,980 transactions (53.4 percent) totaling $52.9 million
                                                               were paid for by credit card.
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                       Print                 1
Highlights
Table of Contents




                                                               What the OIG Found                                                   Without adequate controls over repairs and alterations, the
                                                                                                                                    Postal Service is at increased risk of paying for incomplete or
                                                               While controls over repairs and alterations using the national
                                                                                                                                    faulty work and cannot ensure repair and alteration expenses
                                                               EMCOR contract were adequate, the Postal Service
                                                                                                                                    are properly recorded in its accounting system.
                                                               can improve controls over those paid for by credit card.
                                                               Postal Service policy did not require project managers to obtain
                                                                                                                                    What the OIG Recommended
Findings




                                                               written certification of completion for repairs and alterations
                                                               paid for by credit card. Consequently, project managers did not      We recommended management update policies to require
                                                               obtain written certification for 16 of 27 repairs and alterations    written certification of completion for repairs and alterations
                                                               costing over $2,000. We estimated the Postal Service paid            paid for by credit card and a detailed review of credit card
                                                               $22.2 million for repairs and alterations via credit card in         activity. We also recommended management upgrade systems
                                                               FY 2013 with no written certification of work completed.             to reconcile general ledger transactions to repair project files.

                                                               Also, officials did not perform a detailed review of credit card
Recommendations




                                                               statement activity and other supporting documentation for all
                                                               113 credit card transactions reviewed, valued at $237,224.
                                                               There was no policy requiring such a review. Finally, the
                                                               Postal Service could not reconcile all repair and alteration costs
                                                               from the general ledger to the enterprise Facilities Management
                                                               System because identifiers such as invoice numbers are not
                                                               captured in the general ledger.
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                            Print                                       2
Highlights
                    Transmittal Letter


                                                               September 22, 2014		
Table of Contents




                                                               MEMORANDUM FOR:	 TOM A. SAMRA
                                                               				VICE PRESIDENT, FACILITIES

                                                               				MAURA A. MCNERNEY
                                                               				VICE PRESIDENT, CONTROLLER




                                                               				
                                                               FROM: 			 John E. Cihota
                                                               				Deputy Assistant Inspector General
Findings




                                                               				       for Finance and Supply Management

                                                               SUBJECT: 			                Audit Report – Facilities Repair and Alteration Process
                                                               				                        (Report Number SM-AR-14-009)

                                                               This report presents the results of our audit of the Facilities Repair and Alteration Process
                                                               (Project Number 14YG003SM000).
Recommendations




                                                               We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                               questions or need additional information, please contact Keshia L. Trafton, director, Supply
                                                               Management and Facilities, or me at 703-248-2100.

                                                               Attachment

                                                               cc:	   Corporate Audit and Response Management
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                       Print                   3
Highlights
                    Table of Contents

                                                               Cover
                                                               Highlights.......................................................................................................1
                                                                Background.................................................................................................1
                                                                What the OIG Found...................................................................................2
Table of Contents




                                                                What the OIG Recommended.....................................................................2
                                                               Transmittal Letter...........................................................................................3
                                                               Findings.........................................................................................................5
                                                                Introduction.................................................................................................5
                                                                Conclusion..................................................................................................5
                                                                Written Certification of Repairs and Alterations Paid for by Credit Card.....6
                                                                Review of Credit Card Statement Activity...................................................6
                                                                Tracing Repair Projects from the General Ledger......................................7
                                                               Recommendations........................................................................................8
                                                                Management’s Comments..........................................................................8
Findings




                                                                Evaluation of Management’s Comments....................................................9
                                                               Appendices..................................................................................................10
                                                                Appendix A: Additional Information........................................................... 11
                                                                  Background ........................................................................................... 11
                                                                  Objective, Scope, and Methodology.......................................................12
Recommendations




                                                                  Prior Audit Coverage..............................................................................13
                                                                Appendix B: Management’s Comments....................................................14
                                                               Contact Information.....................................................................................17
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                      Print                         4
Highlights
                    Findings                                   Introduction
                                                               This report presents the results of our self-initiated audit of the Facilities Repair and Alteration Process (Project Number
                                                               14YG003SM000). Our objective was to assess internal controls over the U.S. Postal Service’s Facilities group’s repairs and
                                                               alterations paid for using the EMCOR, Incorporated (EMCOR) contract or credit card. See Appendix A for additional information
                                                               about this audit.

                                                               The Postal Service Facilities group manages repairs and alterations for over 32,000 facilities. Postmasters and officers in charge
                      While controls over completed            (OIC) submit repair and alteration requests to Facilities for completion. Facilities project managers (PM) use a national contract
Table of Contents




                                                               with EMCOR to complete repairs and alterations costing $25,000 or less. For those costing $10,000 or less, personnel have the
                    repairs and alterations using the
                                                               option of selecting contractors and paying them with a credit card. In fiscal year (FY) 2013, Facilities completed 49,980 repairs and
                      national EMCOR contract were             alterations costing about $86 million.1

                        adequate, the Postal Service           We statistically selected 207 of the 49,980 repair and alteration transactions for review. Of our sample, the Postal Service paid
                                                               for 113 by credit card and paid for 94 using the national EMCOR contract. We estimated the Postal Service paid for 26,706 of the
                          can improve controls over
                                                               49,980 repairs and alterations (53.4 percent), totaling $52.9 million, by credit card.
                              completed repairs and
                                                               Conclusion
                        alterations paid for by credit
                                                               While controls over completed repairs and alterations using the national EMCOR contract were adequate, the Postal Service
                      card. Postal Service policy did          can improve controls over completed repairs and alterations paid for by credit card. Postal Service policy did not require PMs to
Findings




                                                               obtain written certification of completion for these repairs and alterations. Consequently, PMs did not obtain written certification for
                    not require PMs to obtain written          16 of 27 repairs and alterations costing over $2,000. We estimated the Postal Service paid $22.2 million via credit card for repairs
                       certification of completion for         and alterations in FY 2013 with no written certification that the work was completed.

                        these repairs and alterations.         Also, credit card approving officials (CCAO) did not perform detailed reviews of credit card statement activity and other supporting
                                                               documentation for any of the 113 credit card statements we reviewed (valued at $237,224). These reviews did not occur because
                         Also, credit card approving           there is no policy requiring CCAOs to perform them. Finally, the Postal Service could not reconcile any repair and alteration costs
                                                               from the general ledger to the enterprise Facilities Management System (eFMS)2 because identifiers such as invoice numbers are
Recommendations




                     officials (CCAO) did not perform          not captured in its general ledger payment system.
                       detailed reviews of credit card
                                                               Without adequate controls over repairs and alterations paid for by credit card, the Postal Service is at increased risk of paying
                         statement activity and other          for incomplete or faulty work. By not capturing repair project identifiers, the Postal Service cannot ensure it properly records
                                                               repair and alteration expenses in its accounting system. However, this issue is not material to the financial statements.
                          supporting documentation
                        for any of the 113 credit card
                             statements we reviewed
                                (valued at $237,224).
Appendices




                                                               1	   We identified 12 repairs and alterations costing more than $25,000 that were completed through a national contract with Roth Brothers, Incorporated, for roofing repairs.
                                                                    We did not include these in our audit.
                                                               2	   The official Postal Service record for real property inventory used to manage all property-related projects including acquisition, disposal, and repairs.
                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                                                        Print                                                   5
Highlights                                                     Written Certification of Repairs and Alterations Paid for by Credit Card
                                                               PMs did not obtain written certifications of completion from Postal Service personnel for 16 of 273 repairs and alterations costing
                                                               over $2,0004 and paid for by credit card. Costs for the 16 repairs and alterations totaled $104,103. PMs were required to obtain
                                                               verbal confirmation from postmasters and OICs before paying contractors for the repairs and alterations, but there was no
                                                               policy requiring PMs to obtain written certification that the work was completed. In contrast, PMs are required to obtain written
                                                               certifications of completion from postmasters or OICs before paying for repairs and alterations that fall under the national
                                                               contract with EMCOR. This requirement should also be applied to credit card activity above pre-determined transaction and
                          Based on our review of the           dollar value thresholds.
Table of Contents




                               sample, we estimated
                                                               Not requiring written documentation certifying the completion of repairs and alterations puts the Postal Service at increased risk of
                     Facilities personnel used credit          paying for incomplete or faulty repairs. In addition, the Postal Service may not be able to successfully defend itself from potential
                                                               disputes with vendors about repairs and alterations because it does not document work completion.
                        cards to pay $22.2 million for
                                                               Based on our review of the sample, we estimated Facilities personnel used credit cards to pay $22,212,626 million for repairs and
                      repairs and alterations costing
                                                               alterations costing more than $2,000 in FY 2013 without obtaining written certifications of completion.
                         more than $2,000 in FY 2013
                                                               Review of Credit Card Statement Activity
                            without obtaining written
                                                               CCAOs did not perform a detailed review of credit card statement activity for any of the 113 reviewed credit card transactions,
                         certifications of completion.         valued at $237,224. They reviewed the credit card charges of Facilities PMs and reconciled them with totals recorded in
Findings




                                                               the Facilities Single Source Provider (FSSP) system5 but did not perform a detailed review of credit card activity to detect
                                                               anomalies that may represent fraud. A detailed review consists of reviewing invoices, statements of work, and other supporting
                                                               documentation for repair activity. PMs perform detailed reviews before paying for repairs and alterations that fall under the
                                                               national contract with EMCOR. CCAOs should also perform such reviews of selected repairs and alterations paid by credit card
                                                               above pre-determined transaction and dollar value thresholds.

                                                               This occurred because Postal Service policy does not require CCAOs to perform detailed reviews. CCAOs can perform detailed
                                                               reviews of credit card statement activity at their discretion. The four Facilities CCAOs stated they did not review the repair files
Recommendations




                                                               because they discussed questionable transactions with PMs and were aware of the PMs’ monthly activity. Not performing detailed
                                                               reviews of credit card statement activity increases the risk of fraud.

                                                               For example, we identified a PM who incurred credit card charges totaling $278,785 in 1 month. Fifty-eight percent of the charges
                                                               ($160,955) were paid to one contractor for 43 repairs and alterations, and there were no internal controls in place that required an
                                                               additional review of this contractor’s repair activity for this credit card statement period. The CCAO did not review the credit card
                                                               statement activity in detail for these transactions.
Appendices




                                                               3	   The PM obtained written certifications of completion for 11 repairs and alterations even though it was not required.
                                                               4	   We reviewed transactions costing over $2,000 because Facilities uses this threshold when reviewing transactions under its national Facilities contracts.
                                                               5	   The Postal Service developed the FSSP system to respond to its facility repair and alteration needs. Repair calls from postmasters and OICs are entered into the FSSP
                                                                    by Facilities personnel and referred to Postal Service maintenance staff. If Postal Service maintenance is unable to perform the repair, Facilities uses a contractor.
                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                                                      Print                                                  6
Highlights                                                     Tracing Repair Projects from the General Ledger
                                                               For FY 2013, we could not reconcile about 19,000 repair and alteration expenditures from the general ledger to the eFMS or
                                                               completed repairs and alterations project files. Repair and alteration projects are tracked by project number in the eFMS and
                                                               supporting documents are maintained in repair project files. The Postal Service’s general ledger records repair and alteration
                                                               expenses at a summary level. These expenses can be traced back to the total dollar amount of completed repairs in the eFMS
                                                               but not to individual repair and alteration project activity.

                        The Postal Service’s general           In August 2014, the Postal Service plans to enhance the eFMS to include identifiers from a general ledger payment file. This will
Table of Contents




                                                               allow Facilities personnel to reconcile costs for repairs and alterations completed through the EMCOR contract from the general
                           ledger records repair and
                                                               ledger to the eFMS. However, the planned enhancement does not include repairs and alterations paid for by credit card, which
                            alteration expenses at a           represent 53.4 percent of all repairs and alterations. This inhibits the Postal Service’s ability to ensure it properly records all repair
                                                               and alteration expenses in its accounting system.
                     summary level. These expenses
                      can be traced back to the total
                         dollar amount of completed
                       repairs in the eFMS but not to
                      individual repair and alteration
Findings




                                     project activity.
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                               Print                                        7
Highlights
                    Recommendations                            We recommend the vice president, Facilities:

                                                               1.	 Update Postal Service policy to require project managers to obtain written postmaster or officer in charge confirmation of
                                                                   completed repairs and alterations above a pre-determined dollar value threshold prior to paying by credit card.

                                                               2.	 Update policy to require credit card approving officials to perform and document detailed reviews of selected credit card
                                                                   statement activity above pre-determined transaction and dollar value thresholds.
                        We recommend management
                                                               We recommend the vice president, Facilities, in coordination with the vice president, Controller:
Table of Contents




                    update policies to require written
                                                               3.	 Enhance the enterprise Facilities Management System to trace costs from general ledger system for repairs and alterations
                       certification of completion for             either completed by EMCOR, Incorporated or paid for by credit card.
                      repairs and alterations paid for
                                                               Management’s Comments
                        by credit card and a detailed          Management agreed with recommendations 1 and 2 and disagreed with recommendation 3. Management did not agree or
                        review of credit card activity.        disagree with the monetary impact. However, management requested the U.S Postal Service Office of Inspector General (OIG)
                                                               present findings without alleging monetary impacts since we could not specifically note real damage to the Postal Service.
                                We also recommend
                                                               Management stated that current policy requires verbal confirmation from the applicable facility head that repair or alteration work
                      management upgrade systems               is complete and satisfactory. They acknowledged the process differs from the current EMCOR process requiring signed
Findings




                          to reconcile general ledger          confirmation of completed work. Management also stated that policy requires CCAOs to review credit card transactions, and
                                                               that project managers are audited annually to include a review of credit card activity in an attempt to proactively detect possible
                               transactions to repair          fraud or abuse. Management further stated that the OIG did not find any harm to the Postal Service from the present practice
                                                               and that the one instance of credit card charges noted in the report was subject to audit in the normal course and resulted in no
                                        project files.         finding of fraud or impropriety.

                                                               Management plans to enhance eFMS with identifiers that trace costs for repairs and alterations completed through the EMCOR
Recommendations




                                                               contract but have not found any significant business reason to identify the source of the payment in the general ledger.

                                                               Regarding recommendation 1, management agreed to require written certification (either by hard copy or by email) of completed
                                                               repairs and alterations above a pre-determined dollar value threshold prior to paying by credit card. They plan to update standard
                                                               operating procedures, with an appropriate risk based threshold dollar value, by December 31, 2014.

                                                               Regarding recommendation 2, management agreed to review the annual project manager audit checklist, and as appropriate,
                                                               add requirements for more detailed review of credit card statement activity above a pre-determined dollar value/transaction
                                                               threshold as appropriate. They plan to complete the review by December 31, 2014, and implement the results by March 31, 2015.
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                           Print                                     8
Highlights                                                     Regarding recommendation 3, management said the Postal Service does not have a business need to trace detailed transactions
                                                               in the general ledger. However, management stated they do plan to enhance eFMS with identifiers that trace costs for repairs and
                                                               alterations completed through the EMCOR contract.

                                                               See Appendix B for management’s comments, in their entirety.

                                                               Evaluation of Management’s Comments
                                                               The OIG considers management’s comments responsive to recommendations 1 and 2 and the corrective actions should resolve
Table of Contents




                                                               the issues identified in the report. Regarding management’s request that the OIG present findings without alleging monetary
                                                               impacts, our report details the dollar amounts associated with the transactions we found issues with and the impact. This is
                                                               necessary to provide information about the materiality of the issue.

                                                               Regarding management’s response to recommendation 3, we agree that detailed transactions should not be included in the
                                                               general ledger and did not recommend the Postal Service do so. We believe it is important for Facilities personnel to identify
                                                               individual repair and alteration projects that are completed and paid for and, therefore, agree with management’s plans to enhance
                                                               eFMS with identifiers to trace costs for repairs and alterations completed through the EMCOR contract. However, we also
                                                               believe a similar enhancement would be beneficial for repairs and alterations paid for by credit card to provide the Postal Service
                                                               the ability to ensure it properly records all repair and alteration expenses in its accounting system. The OIG does not consider
                                                               management’s comments responsive to the recommendation but, because this issue is not material to the financial statements,
                                                               we will not pursue it through the formal audit resolution process.
Findings




                                                               The OIG considers recommendations 1 and 2 significant, and therefore requires OIG concurrence before closure. Consequently,
                                                               the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                               Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                         Print                                   9
Highlights
                    Appendices

                                                               Appendix A: Additional Information........................................................... 11
                                                                Background ........................................................................................... 11
                                                                Objective, Scope, and Methodology.......................................................12
                           Click on the appendix title          Prior Audit Coverage..............................................................................13
Table of Contents




                                                               Appendix B: Management’s Comments....................................................14
                           to the right to navigate to
                                 the section content.
Findings
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                  Print                     10
Highlights          Appendix A:                                Background
                    Additional Information                     The Facilities group manages repairs and alterations for over 32,000 facilities. In FY 2013, Facilities completed 49,980 repairs
                                                               and alterations, each costing $25,000 or less. These transactions totaled about $86 million. The Postal Service developed the
                                                               FSSP to respond to Facilities’ repair and alteration needs. Postmasters and OICs identify repair and alteration needs and submit
                                                               requests to Facilities for completion. Facilities personnel then enter the requests into the FSSP and refer them to Postal Service
                                                               maintenance staff. If the maintenance staff is unable to perform the repair or alteration, Facilities uses a contractor to complete
                                                               the work.

                       The Facilities group manages
Table of Contents




                                                               The Postal Service pays for repairs and alterations costing more than $25,000 using national contracts with either the
                           repairs and alterations for         Gordian Group or Roth Brothers, Incorporated, or by soliciting bids and proposals from contractors. The Postal Service contracted
                                                               with EMCOR to manage repairs and alterations costing $25,000 or less. EMCOR developed the Facilities Knowledge Center
                               over 32,000 facilities.         project management tool to accept and process requests from Postal Service personnel for a broad range of repairs and
                                                               alterations related to electrical, plumbing and heat, ventilation and air conditioning, fire and life safety, and security system issues.
                     In FY 2013, Facilities completed
                                                               EMCOR uses repair contractors across its network to complete repairs and alterations. Prior to authorizing payment, PMs must
                       49,980 repairs and alterations,         obtain written certification from the postmaster or OIC who requested the work that the repair or alteration was completed.

                        each costing $25,000 or less.          PMs can also use credit cards to pay for repairs and alterations costing $10,000 or less. We projected 26,706 of the
                                                               49,980 repairs and alterations (53.4 percent) completed in FY 2013 were paid for by credit card. In these instances, the PMs
                          These transactions totaled           are only required to obtain verbal confirmation from postmasters or OICs that work was completed prior to authorizing payment.
                                   about $86 million.          Some PMs have the authority to charge repairs and alterations over $500,000 in a 30-day credit card statement period. PMs are
Findings




                                                               required to electronically review credit card transactions monthly via a U.S. Bank credit card management tool and reconcile repair
                                                               and alteration invoices and supporting documentation with their monthly statement to identify any errors. After PMs reconcile the
                                                               charges, they submit the statement to their CCAO for review.
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                              Print                                   11
Highlights                                                     Objective, Scope, and Methodology
                                                               Our objective was to assess internal controls over the Postal Service Facilities repairs and alterations paid for using the
                                                               EMCOR contract or credit card.

                                                               To accomplish our objective we:

                                                               ■■ Interviewed repairs and alterations PMs and team leaders to gain an understanding of the repair and alteration process and
                          We interviewed repairs and              related contracts.
Table of Contents




                    alterations PMs and team leaders ■■
                                                        Obtained a universe of 49,992 repairs and alterations completed in FY 2013 and costing $25,000 or less from Facilities
                     to gain an understanding of the    personnel. During our fieldwork, we identified that 12 of the 49,992 repairs and alterations actually cost more than $25,000.
                                                                    These repairs and alterations were completed through the national contract with Roth Brothers, Incorporated, for roofing
                    repair and alteration process and               repairs and totaled about $418,000. None of the 12 were included in our statistical sample. This reduced the universe to
                                                                    49,980 repairs and alterations. The payments for these transactions totaled about $86 million.
                                   related contracts.
                                                               ■■ Reviewed the project files for a statistical sample of 207 repairs and alterations and determined whether each was routine,6
                                                                  urgent,7 or an emergency,8 and:

                                                                    ●● Whether the repair or alteration was paid for through the contract with EMCOR or by credit card.
Findings




                                                                    ●● Whether the repair or alteration was properly authorized.

                                                                    ●● Whether the repair or alteration was completed timely.

                                                                    ●● Whether the PM obtained proper notification that the repair or authorization was completed prior to authorizing payment.

                                                               ■■ For repairs paid for by credit card, we also:
Recommendations




                                                                    ●● Determined whether the credit cardholder had proper approval authority.

                                                                    ●● Reviewed the corresponding credit card statement related to the charge and determined the number of times the credit
                                                                       card holder used the same vendor during the month.

                                                                    ●● Reviewed credit card holder reconciliation and credit card approving official authorization processes.

                                                                    ●● Established a $2,000 threshold for determining if PMs obtain written certification from postmasters or OICs that repairs
                                                                       and alterations were completed. We based this threshold on the criteria used by Facilities personnel for the EMCOR
                                                                       contract and discussions with Facilities management. We estimated that 20,136 of the 26,706 repairs and alterations
Appendices




                                                                       paid for by credit card (75 percent) cost less than $2,000.


                                                               6	   Repairs that occur during the ordinary lifecycle of a building such as preventive maintenance for heating and air, plumbing, and electrical.
                                                               7	   Urgent repairs must be completed within 30 days, depending on the nature of the repair.
                                                               8	   Emergency repairs require a contractor to be on site within 4 hours of Facilities receiving the call. The first step is to abate the immediate problem or secure the facility.
                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                                                             Print                                                   12
Highlights                                                     We conducted this performance audit from October 2013 through September 2014, in accordance with generally accepted
                                                               government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                               Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                               basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                               basis for our findings and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                               management on August 6, 2014, and included their comments where appropriate.

                                                               We assessed the reliability of computer-generated data by comparing source documents to data in eFMS. We also interviewed
                                                               agency officials knowledgeable about the data. We ran an eFMS query of repairs and alterations completed in FY 2013 and
Table of Contents




                                                               compared the type and costs to invoices, scopes of work and payment documentation for our sample of 207 repairs. We
                                                               further investigated any discrepancies between the eFMS data and supporting documentation and obtained reasons for the
                                                               discrepancies. We determined the data was sufficiently reliable for the purposes of this report.

                                                               Prior Audit Coverage
                                                               The OIG issued Spending Trends for Maintaining Postal Service Facilities (Report Number SM-AR-14-002, dated November 27,
                                                               2013), which concluded that budget constraints have affected the Postal Service’s ability to complete repairs, alterations, and
                                                               capital improvements. In FY 2012, the Postal Service spent $266 million (29 percent) below the industry average on facility
                                                               repairs. As a result, during FYs 2011 and 2012, Facilities did not complete 19,033 repairs (18 percent) estimated to cost more
                                                               than $271 million. Fifty percent of these incomplete repairs represented safety, security, and potential future major repairs.
                                                               Future costs for these repairs could reach $1.4 billion.
Findings




                                                               We recommended management develop a strategy to complete all repairs to adequately maintain Postal Service facilities
                                                               and provide Postal Service Finance and Planning with a business case to reallocate funds to critical repairs to mitigate future
                                                               repair costs. We also recommended that management establish written procedures to ensure repair classifications are accurate
                                                               each year and to reconcile prioritization lists yearly to identify incomplete repairs to carry forward. Management agreed with
                                                               our recommendations.
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                                        Print                                    13
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                               Print   14
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                               Print   15
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                               Print   16
Highlights
Table of Contents
Findings




                                                                  Contact us via our Hotline and FOIA forms, follow us on social
                                                               networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                      or abuse. Stay informed.
Recommendations




                                                                                     1735 North Lynn Street
                                                                                    Arlington, VA 22209-2020
                                                                                          (703) 248-2100
Appendices




                    Facilities Repair and Alteration Process
                    Report Number SM-AR-14-009
                                                                                                                                        Print   17
